sme,  ClQCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

MELINDA MITCHELL, individually and on
behalf of a class of all others similarly situated,
HARVEY MITCHELL, individually and on
behalf of a class of all others similarly situated,

Petitioners,

Vv.
CITY OF NEW YORK, a municipal entity,

NYC POLICE OFFICER JAMES SCHUESSLER,
SHIELD NO, 28718, POLICE OFFICER JOSEPH
BRINADZE, NYPD CAPTAIN JOSEPH GULOTTA,
NYPD SERGEANT DANIELLE ROVENTINI,
NYPD LIEUTENANT KATHLEEN CAESAR,
RICHARD ROES 1-50, NEW YORK CITY POLICE
SUPERVISORS AND COMMANDERS, JOHN DOES and
1-50 NEW YORK CITY POLICE OFFICERS, individually,
and in their official capacities, jointly and severally,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of September, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

To be filed for:

JONATHAN C. MOORE

BELDOCK LEVINE &
HOFFMAN LLP

99 Park Avenue, Suite 1600

New York, New York 10016

(212) 490-0400

SEE ATTACHED

JOSHUA S. MOSKOVITZ

BERNSTEIN CLARKE &
MOSKOVITZ PLLC

11 Park Place, Suite 914

New York, New York 10007

(212) 321-0087

Subscribed and sworn to before me this 6th day of September, 2019.

1am duly authorized under the laws of the State of Nebraska to administer oaths.

JEFFREY A. ROTHMAN, ESQ.
Counsel of Record

315 Broadway, Suite 200

New York, New York 10007
(212) 227-2980
rothman,jeffrey@gmail.com

PATRICIA BILLOTTE

ome, EC Elite Qudeow-h, ale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38448
Melanie West, Esq.

New York City Law Department
Appeals Division

100 Church Street

New York, NY 10007

(212) 356-0842
mwest@law.nyc.gov
